No. ___________

In the

Supreme Court of the United States
HARRIS COUNTY, TEXAS
Petitioner,
v.
PRSI TRADING, LLC
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE SUPREME COURT OF TEXAS
PETITION FOR A WRIT OF CERTIORARI
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 22.1(h), I certify that the Petition
for a Writ of Certiorari in the above-referenced case contains 5,592, excluding
the parts of the petition exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 26, 2020.
By: /s/Bernardino Agosto, Jr.
Bernardino Agosto, Jr.
ABRAHAM, WATKINS, NICHOLS,
SORRELS, AGOSTO, AZIZ & STOGNER
800 Commerce Street
Houston, TX 77002
713-222-7211
bagosto@awtxlaw.com
Counsel for Petitioner

